<html>
<title> - MODERNIZING THE AVIATION SYSTEM: LEVERAGING THE ASSETS OF THE FAA'S WILLIAM J. HUGHES TECHNICAL CENTER</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    MODERNIZING THE AVIATION SYSTEM:
                   LEVERAGING THE ASSETS OF THE FAA'S
                   WILLIAM J. HUGHES TECHNICAL CENTER

=======================================================================

                                (113-58)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

            MARCH 11, 2014 (Egg Harbor Township, New Jersey)

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation




                  U.S. GOVERNMENT PRINTING OFFICE
87-048                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
VACANCY
                                ------                                7

                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman
THOMAS E. PETRI, Wisconsin           RICK LARSEN, Washington
HOWARD COBLE, North Carolina         PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         ANDRE CARSON, Indiana
DANIEL WEBSTER, Florida              RICHARD M. NOLAN, Minnesota
JEFF DENHAM, California              DINA TITUS, Nevada
REID J. RIBBLE, Wisconsin            SEAN PATRICK MALONEY, New York
THOMAS MASSIE, Kentucky              CHERI BUSTOS, Illinois
STEVE DAINES, Montana                CORRINE BROWN, Florida
ROGER WILLIAMS, Texas                ELIZABETH H. ESTY, Connecticut
MARK MEADOWS, North Carolina         NICK J. RAHALL, II, West Virginia
RODNEY DAVIS, Illinois, Vice Chair     (Ex Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
VACANCY
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Hon. Michael G. Whitaker, Deputy Administrator and Chief NextGen 
  Officer, Federal Aviation Administration.......................     5
Dennis Filler, director, William J. Hughes Technical Center, 
  Federal Aviation Administration................................     5

                                Panel 2

Peter F. Dumont, president and CEO, Air Traffic Control 
  Association....................................................    13
Cynthia Castillo, president and CEO, CSSI, Inc...................    13
Melvin Davis, national representative for NextGen, National Air 
  Traffic Controllers Association................................    13
Ben Gielow, general counsel and senior government relations 
  manager, Association for Unmanned Vehicle Systems International    13

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Michael G. Whitaker and Dennis Filler, joint statement......    27
Peter F. Dumont..................................................    38
Cynthia Castillo.................................................    46
Melvin Davis.....................................................    53
Ben Gielow.......................................................    59

[GRAPHIC] [TIFF OMITTED] 


  MODERNIZING THE AVIATION SYSTEM: LEVERAGING THE ASSETS OF THE FAA'S 
                   WILLIAM J. HUGHES TECHNICAL CENTER

                              ----------                              


                        TUESDAY, MARCH 11, 2014

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                           Egg Harbor Township, NJ.
    The subcommittee met, pursuant to call, at 1:30 p.m., in 
William J. Hughes Technical Center, Hon. Frank A. LoBiondo 
(Chairman of the subcommittee) presiding.
    Mr. LoBiondo. The subcommittee will now come to order.
    I would like to thank everyone for being here today.
    Let me start off by saying how Rick and I and the 
subcommittee, our thoughts and prayers are with the families of 
the missing Malaysian Airlines flight. I know we are all 
anxiously awaiting to hear what happened there, and at this 
point all we can say is our thoughts and prayers are with them.
    Again, let me begin by thanking everyone for being here 
today and everyone that helped organize this hearing. The FAA 
has been a great host and I really appreciate all of their 
efforts to accommodate us.
    I also want to thank the ranking member, Rick Larsen from 
the State of Washington, for taking time out of his day to see 
firsthand. We had a tour this morning. I think it was your 
first time here, Rick, and got a good opportunity to see why we 
are the premier facility in the entire United States of 
America--in fact, the world--for safety and security and 
research and development. Our laboratories are one of a kind, 
but as great as the laboratories are, it is the men and women 
who work here at the Technical Center who make all of this go. 
The dedication, the enthusiasm, the commitment to excellence is 
deeply appreciated, and we want to personally acknowledge you 
for that.
    I want to also welcome our witnesses today. We look forward 
to your testimony.
    I have been very fortunate to represent the Technical 
Center during my time in Congress. While I have not always been 
chairman of the Aviation Subcommittee, I have always been the 
biggest cheerleader and a huge supporter for the work that is 
done here, and I believe the work that goes on here will make 
such a tremendous difference to our aviation system and the 
country.
    One example of this is the work that was done here at the 
Technical Center on the Asiana crash, which was last July, July 
of 2013. While the loss of any life is tragic, it could have 
been much worse if the improvements and the safety developments 
that had been worked on here were not implemented into that 
flight.
    The Technical Center houses the world's largest aviation 
test facility. Work here has produced safety improvements, 
including again the most recent aviation slides, fuel tank 
explosion protection, fire blocking layers in seat cushions. 
These efforts reduce the likelihood of a fire on board an 
aircraft, and, should one occur, slow the spread of fire, 
giving passengers more time to evacuate an aircraft, and 
ultimately save lives.
    While I could go on for quite a while talking about the 
wide range of important work that goes on here, today's hearing 
is focused on the Technical Center's role in the development 
and implementation of the FAA's air traffic control 
modernization program, known as NextGen. The goal is to ensure 
the Technical Center's resources and expertise are being used 
in a way that makes the most sense.
    The Technical Center serves as the core FAA research and 
development facility for NextGen. Looking back, the Technical 
Center has been involved in some of the earliest air traffic 
control projects, including the design and development of the 
early Air Traffic Control Automation Systems and the first air 
traffic control tower cab mockup to validate controller work 
areas. These projects served as the foundation for our existing 
system.
    And today, the Technical Center continues to play an 
integral role in the development, testing, and validation of 
the latest and greatest technologies. This includes programs 
such as satellite navigation, text-message-like data 
communications, and the enabling software to process NextGen 
technologies and capabilities. These programs are essential to 
NextGen, and the testing and validation work that is being done 
right here at this facility is unmatched anywhere.
    Further, the Technical Center's role isn't over once the 
new system is deployed in the field. For example, when the En 
Route Automation Modernization, called ERAM, software 
experienced site-specific problems as it was being installed in 
FAA facilities, the problems were relayed to the Technical 
Center. Here Government and industry teams were able to 
troubleshoot the problem in a simulated environment, develop a 
solution, and transmit the solution back to the air traffic 
facility for implementation.
    The ability to conduct that type of work is only possible 
because of the integrated laboratories here at the Technical 
Center. One of the key laboratories is the NextGen Integration 
and Evaluation Capability. Among its many functions, it has the 
ability to provide a combined environment of legacy systems 
with future technologies and capabilities, enabling it to 
support the transition to NextGen. Given the considerable 
challenges with the ongoing transition to NextGen, we must 
examine every available resource here at the Technical Center 
and ensure they are being adequately utilized, especially the 
world-class expertise of the Technical Center employees.
    Finally, as part of the transition to NextGen, the FAA, in 
partnership with industry stakeholders, must also safely 
integrate unmanned aircraft systems or UAS into the National 
Airspace System. The Technical Center currently leads the FAA's 
Safety Research and Development Program. Through this program 
the Technical Center continually works with the FAA's 
regulatory organization to increase safety and allow for new 
technologies and ideas, including UAS. And as the committee saw 
earlier on the tour of the NIEC laboratories, the Technical 
Center has already flown UAS using simulation in the National 
Airspace System.
    The FAA Technical Center will have a key role in helping 
collect, protect, analyze, integrate and validate operational 
and safety data that will become available from the six UAS 
test ranges established by the FAA. This data, along with the 
other work, is essential for the FAA to develop the regulatory 
program to allow for the safe UAS operations in the National 
Airspace System. We need to make sure that the Technical Center 
has what it needs for that important work.
    I want to just take a moment to say also that we are all 
pretty proud here in New Jersey of the Technical Center for 
being named one of the six national test sites. There was sort 
of a nationwide RFP that was put out. This was a recognition 
that the technology is tremendous with the UAS systems. The 
application for everyday and quality-of-life issues is 
enormous. But the ability to safely integrate them into our 
airspace with the proper privacy restraints that are put on 
there is something that we look forward to.
    And being one of only six in the entire United States of 
America, where the New Jersey application, along with Virginia, 
has made it to that final stage is something that we can all be 
pretty proud of, and I think holds a great opportunity.
    With that, I would like to quickly introduce today's 
witnesses. Our first panel we have the Honorable Michael 
Whitaker, the FAA's Deputy Administrator and Chief NextGen 
Officer; and Mr. Dennis Filler, director of the Technical 
Center and the head of research and development.
    On our second panel we have Mr. Pete Dumont, president and 
CEO of the Air Traffic Control Association and cochair of the 
NextGen Institute's Management Council; Ms. Cynthia Castillo, 
president and CEO of CSSI, Inc.; Melvin Davis, national 
representative for the NextGen National Air Traffic Controllers 
Association; and Mr. Ben Gielow, general counsel and senior 
government relations manager for the Association for Unmanned 
Vehicle Systems International.
    On behalf of the subcommittee, we welcome you. We thank you 
in advance for your testimony. We certainly look forward to 
hearing from each of you and your perspectives on the Technical 
Center and NextGen and UAS-related resources, as well as your 
vision for what the Technical Center's role might look like 
into the years ahead.
    I now ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and include 
extraneous materials for the record.
    Without objection, that is so ordered.
    And now I would like to turn to our ranking member, Mr. 
Rick Larsen.
    Rick, thanks again for being here today.
    Mr. Larsen. Thanks, Frank. I appreciate it.
    I want to thank Chairman LoBiondo for calling today's 
hearing to discuss modernizing the aviation system, leveraging 
the assets of the FAA's William J. Hughes Technical Center.
    It is a pleasure to be here today and to tour this world-
class facility and meet some world-class people involved in the 
research.
    Over the past year that Frank and I have led the 
subcommittee, I have learned a lot through the hearings and in 
the listening sessions. Frank has done a great job of 
organizing the work of the subcommittee to be sure that the 
subcommittee itself is on the cutting edge of trying to figure 
out where the FAA and where the national airspace and where the 
aviation system and industry needs to go. I really appreciate 
his leadership.
    Getting to see some of this new technology today has helped 
me better understand the rapidly evolving landscape for the 
aviation industry. And for those who don't know my district, if 
you fly in an airplane, it is probably built in my district, to 
give you a flavor of where I come from. There are 200 
aerospace, other aerospace suppliers in my district, and in 
Washington State there are over 1,000 other aerospace 
suppliers, all operating and working not just because of an 
active aviation industry worldwide but because of a lot of the 
foundational work that takes place in research and development 
here at the Technical Center.
    So our time here today highlights the ongoing need for a 
well-trained workforce that understands the complexities of our 
air system, and the center is a unique place for innovation to 
advance aviation technology, everything from hardware and 
software that you need to get information out to people so they 
understand what the weather is going to be like sooner, to the 
guys over in the fire system who get to blow things up, which 
is pretty cool as well.
    For over 50 years, the Technical Center has served as a 
primary FAA research and development facility to enhance 
aviation safety and modernize the Nation's air traffic control 
system. Most recently, the Technical Center has been a 
cornerstone for the FAA in research and development of major 
NextGen programs like Automatic Dependent Surveillance, 
Broadcast and Data Communications, both of which we saw this 
morning.
    While the implementation of NextGen has been long and 
challenging, the FAA has made progress, in part because of the 
ongoing work here at the center. The next big challenge facing 
the FAA is ensuring the safe integration of unmanned aircraft 
systems, or UAS, into one of the most complex air traffic 
systems in the world, and the FAA Modernization and Reform Act 
of 2012 set forth requirements and milestones for the FAA to 
integrate UAS into the national airspace. One of the Act's 
provisions required the FAA to select six test ranges. These 
sites are located throughout the country and will begin soon 
collecting safety and operational data.
    Test site data will assist the agency in developing 
policies for future commercial and civil use of unmanned 
aircraft. So today, as part of the hearing, I certainly want to 
hear how the FAA intends to work with test sites to ensure that 
it is able to collect, protect, and share the data that it 
needs. I am also interested to hear how the agency will ensure 
privacy near the test sites.
    Unfortunately, the Technical Center can't provide the FAA 
with the assets to collect, validate, and analyze all of the 
data it intends to gather. So I hope to hear more about how the 
FAA intends to use its resources here as well to help advance 
the integration of UAS and to advance next-generation air 
traffic control.
    So I want to thank Chairman LoBiondo again for having me up 
here and having me as a partner on the committee. I really 
appreciate it very much and look forward to hearing from our 
witnesses today. Thank you.
    Mr. LoBiondo. Thank you, Rick, very much.
    Now I would like to recognize our first witness of the day, 
FAA Deputy Administrator and Chief NextGen Officer, Mr. Michael 
Whitaker.
    Michael, thank you.

TESTIMONY OF HON. MICHAEL G. WHITAKER, DEPUTY ADMINISTRATOR AND 
CHIEF NEXTGEN OFFICER, FEDERAL AVIATION ADMINISTRATION; DENNIS 
 FILLER, DIRECTOR, WILLIAM J. HUGHES TECHNICAL CENTER, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Whitaker. Thank you. Good afternoon, Chairman LoBiondo, 
Ranking Member Larsen, members of the subcommittee. Thank you 
for the opportunity to testify today.
    Before we begin, I would also like to take a moment on 
behalf of the agency to say that our hearts go out to the 
families of those on Malaysian Air flight 370. On Saturday, the 
FAA sent representatives as part of the NTSB investigative team 
supporting the Malaysian Government with the accident 
investigation. The United States Government is in communication 
across agencies and with international officials to provide any 
additional assistance that may be necessary.
    Turning to the matter at hand, to the Technical Center, I 
am pleased to have the opportunity to highlight this facility's 
vital role in deploying NextGen and in integrating unmanned 
aircraft into our Nation's airspace.
    Let me start by noting that we are nearly complete with the 
foundation of NextGen. This foundation includes a much needed 
upgrade of the automation in our air traffic control facilities 
and building of ground stations to enable the transition from a 
radar-based to a satellite-based system.
    Right now, 18 of our 20 en route centers have started 
running ERAM to control traffic in high-altitude airspace. More 
than half are using it exclusively to control air traffic 
instead of the legacy system from the 1960s. All 20 en route 
centers are expected to be running ERAM exclusively by March of 
next year, which will allow us to pull down the legacy host 
system.
    We are also upgrading the computer system that runs the 
lower altitude airspace closer to airports. This project, TAMR, 
requires switching out computer processors, screens and 
software in more than 150 TRACON facilities across the country.
    Throughout the United States, we have installed more than 
95 percent of the ground stations for ADS-B, and we will 
complete the baseline installation this month. With this 
technology we will achieve more precise surveillance of 
aircraft, which will make the air traffic system safer and more 
efficient.
    In addition to this foundation, we continue to implement 
performance-based navigation procedures. PBN allows aircraft to 
fly on more direct paths across the country and in congested 
airspace. These advanced navigation procedures are cutting 
flight time and reducing fuel burn and emissions.
    This is all good progress, but it is just the beginning. 
Completing NextGen's foundation will enable new capabilities 
that will make aviation safer, more efficient, and more 
environmentally friendly.
    NextGen technologies are also making it possible to safely 
introduce unmanned aircraft into the airspace system, and let 
me give you a few examples of the connection between NextGen 
and unmanned aircraft systems.
    In order for many unmanned aircraft to operate safely in 
shared airspace, we must develop technologies that enable them 
to detect and avoid other airborne vehicles. The agency is 
researching and developing a collision avoidance system 
specifically designed for unmanned aircraft. It is a technology 
called ACAS X-U. The Technical Center will also be aiding this 
effort by conducting flight testing, as we saw this morning.
    Also, ADS-B can help achieve collision avoidance through 
more precise surveillance and separation of both manned and 
unmanned aircraft in the same vicinity.
    Another NextGen technology that will support unmanned 
aircraft is NAS Voice System. NVS modernizes the voice 
communication capabilities that we use for air traffic 
services. It will enable controllers to communicate with the 
ground pilot of an unmanned vehicle even if that pilot is 
located on the other side of the country.
    With its world-class laboratories and engineering 
expertise, the FAA's Technical Center plays a central role both 
in the deployment of NextGen and in the safe introduction of 
unmanned aircraft. As you mentioned, this past December we 
announced the selection of six test sites for unmanned aircraft 
across the country. These test sites, which include State 
governments and public universities, will provide data to help 
us determine the safety certification and navigation 
requirements for unmanned systems. We expect that a significant 
portion of the test site data collection and analysis will take 
place at the Technical Center.
    Later this year we will also be conducting simulation 
modeling for the Department of Defense to assist them in 
standardizing procedures for unmanned aircraft across various 
branches of the military. The FAA is working with other 
Government agencies, including NASA and the Department of 
Homeland Security, on unmanned aircraft projects. By working 
with other agencies here at the Technical Center, we are able 
to leverage each other's expertise and resources and minimize 
the duplication of efforts.
    Let me close by saying that NextGen is already delivering 
benefits across the country. We have made great progress toward 
completing the foundation of NextGen and we are well positioned 
to reap more benefits in air traffic efficiency, reduce delays, 
fuel savings, and environmental improvements. The Technical 
Center is enabling us to realize these benefits and enabling us 
to safely introduce unmanned aircraft.
    Mr. Chairman, that concludes my remarks, and I would be 
happy to take any questions.
    Mr. LoBiondo. Thank you, Mr. Whitaker.
    Now I would like to recognize the head of research and 
development for the FAA and the director of the Technical 
Center, Dennis Filler.
    Dennis, the floor is yours.
    Mr. Filler. Thank you, sir. Good afternoon, Chairman 
LoBiondo and Ranking Member Larsen. Thank you very much for the 
opportunity to testify before you today.
    As the director of the FAA William J. Hughes Technical 
Center, please let me extend a warm welcome to you. It is 
certainly an honor to have you here with us.
    The Technical Center is the Nation's premier air 
transportation systems laboratory. We support the development 
of scientific solutions to both current and future air 
transportation system challenges. We utilize our one-of-a-kind, 
world-class laboratory and its environments to enable the 
modernization and sustainment of the National Airspace System.
    There is no facility like this anywhere in the world, 
replicating the entire national airspace under one roof with 
the capability to support all aviation systems throughout their 
complete life cycle.
    The center's areas of focus include safety, air traffic 
management, communications, navigation, surveillance, 
aeronautical information, weather, human factors, flight test, 
information systems security, and airport technologies. The 
center also provides 24/7 operational support to FAA field 
facilities across the Nation. Center specialists diagnose and 
correct problems so that critical systems can remain 
operational. Our efforts have an impact all across the world.
    As the Deputy Administrator stated, the center plays a 
central role in both the deployment of NextGen and in the safe 
integration of unmanned aviation systems into our Nation's 
airspace.
    Key NextGen foundational programs such as ADS-B, ERAM, and 
datacom have all been developed, tested, or began their 
nationwide deployment from the Technical Center through our 
unique engineering, our test and evaluation, and sustainment 
activities. You have had the chance to see some of these 
technologies in action this morning.
    The center will continue to be a key player in unmanned 
aircraft systems, supporting concept exploration, research and 
development, and ultimately full integration and systems 
testing. The center replicates the entire NAS by having all the 
equipment and the support systems that exist in the NAS. In 
addition, we have the ability to simulate or emulate any 
geographic location or set of operating conditions. As a 
result, it uniquely positions us to be able to support 
exploration of unmanned aircraft systems integration.
    Key NextGen technologies developed right here will enable 
the safe integration of unmanned aircraft systems into our 
National Airspace System. These systems and other 
transformational programs have the potential to provide UAS, as 
well as manned aircraft, more information, flexibility, 
situational awareness, and a greater ability to communicate 
vital information between all users of the National Airspace 
System.
    Beyond NextGen and unmanned aircraft systems, other 
critical safety systems are developed here, including our 
flame-resistant aircraft seats and interior panels which you 
saw this morning, and approved floor and exit lightings, and 
the standards to which all these products are designed and 
built.
    The implementation of these standards permitted the 
passengers of Asiana Airlines flight 214 the critical time that 
they needed to safely exit the aircraft. Thanks in large part 
to the contributions of Technical Center research, almost 
everyone survived that crash.
    In addition, we developed and fielded a crushable concrete 
arresting system that provides a way to quickly and safely stop 
an aircraft as large as a 747 in the event the plane runs off 
the end of the runway. Also, we are currently involved in 
research to make it safer to transport lithium batteries.
    The Technical Center also serves as home base for other 
aviation-related entities. It is the home of the Federal Air 
Marshall Service Training Program and the Department of 
Homeland Security's Transportation Security Laboratory. Also 
located here are a U.S. Coast Guard aviation detachment and the 
New Jersey Air National Guard, as well as the Atlantic City 
International Airport. These aviation-related entities help 
create a collaborative aviation-centered campus that provides a 
real-world operational environment in which to explore future 
aviation concepts.
    Mr. Chairman, once again, I would like to thank you for the 
opportunity to testify before you today. At this time, I would 
be happy to answer any questions you may have. Thank you.
    Mr. LoBiondo. Thank you.
    We will start, Mr. Whitaker, with you.
    With unmanned aerial systems, we know that the Technical 
Center is going to be very involved. Can you tell us briefly 
how the Technical Center will be involved with the safe 
integration into the National Airspace System? And what role 
will the Technical Center have with the six new congressionally 
mandated UAS test ranges?
    Mr. Whitaker. The Technical Center has been involved to 
this point and I think will continue to be involved as really 
the hub of the research that is going on around UAS. The 
Technical Center was involved in administrating the process 
around selecting the test sites, working with the test sites on 
contracting, and will serve as the hub for analyzing data that 
comes from the research that comes out of the test sites.
    There are a number of technologies that we need to 
understand, sense and avoid being one of the key ones. 
Communications are also a key element since the pilot is not 
with the aircraft in that situation. All of those systems will 
also be tested here and integrated here. I would view the test 
center as really the hub of the technical effort to integrate 
the UAS into the system.
    Mr. LoBiondo. Mr. Filler, what would you say would be the 
top five priorities for the Technical Center in 2014? Top 
three?
    Mr. Filler. OK, sir. Thank you.
    Mr. Whitaker. You don't get the questions in advance.
    [Laughter.]
    Mr. Filler. No, we don't.
    First off is sustainment. We have to keep the system 
operating safely, which the center does very routinely.
    Second is development of human capital. We have efforts 
underway to bring in co-op students and continue to develop our 
workforce. We, like a lot of Government, have an aging 
workforce, and we are putting a lot of effort into making sure 
that we can sustain the quality of the work that we do here 
each and every day.
    Third, obviously, is integration of UAS into the National 
Airspace System, understanding where this program is going, how 
we can contribute, and making sure that we have all the 
resources and the capability to go there.
    The last area we are going to concentrate on this year is 
in the area of enterprise cybersecurity--making sure the whole 
enterprise is secure in an electronic sense.
    Mr. LoBiondo. Mr. Whitaker, is the FAA contemplating 
another strategic reorganization of the NextGen office? And if 
so, what role will the Technical Center have in the new 
structure?
    Mr. Whitaker. We don't anticipate any significant 
reorganizations at this time. The NextGen organization reports 
up to me, as does the PMO on the ATC side. So I have line of 
sight over that, all aspects of NextGen in that regard. The 
Technical Center will remain in its current status under 
Dennis, reporting up through General Bolton to me.
    Mr. LoBiondo. OK. And Dennis, as both head of R&D and for 
the FAA as director, what do you think the major challenges are 
that you see for the integration of unmanned aerial systems 
into the national airspace, and what do you think is going to 
be the most important to focus on first?
    Mr. Filler. The biggest challenge is going to be I think 
determining the proper starting point, an area of focus. The 
UAS problem is very broad, very complex. I believe that we have 
to start with a solvable management problem that has industry 
and Government backing behind it and focus on that and 
concentrate our resources on solving that problem, getting a 
good entryway of UAS into the national airspace.
    The biggest barrier is going to be on, I think, the 
community coming together to say, yes, this is problem number 
one and this is where we should focus our resources. Everyone 
has different perspectives and different interests, but I 
believe that if we can find that first problem and we can all 
work together to solve that first problem rather than trying to 
solve UAS flying from low altitudes all the way through 60,000 
feet and beyond, maybe concentrate in an agricultural area or 
some solvable, manageable problem, then we can focus our 
resources there, learn, and then we can expand and go into 
other domains.
    Mr. LoBiondo. Thanks.
    Rick?
    Mr. Larsen. Thanks.
    First for Mr. Whitaker. On the tour today we heard about 
the progress in ADS-B installations, and you mentioned it 
today, saying 95 percent of ground stations for ADS-B are 
installed, and this month at some point it will be 100 percent, 
and that would set a baseline. I think you used the term it 
would be the baseline for ADS-B. Can you explain what you mean 
by that, as opposed to when does the switch turn on?
    Mr. Whitaker. Once the installations are in, then the ADS-B 
system needs to be integrated with the new automation systems 
that are going to be running in the centers, particularly the 
ERAM high-altitude centers. So as ERAM finishes up in the 
spring of next year, the ADS-B has to be integrated into that 
system.
    This morning the term ``system of systems'' was used on a 
couple of occasions. These are two systems that have to be 
integrated together as part of the process going forward.
    Mr. Larsen. And you mentioned I think in your testimony 18 
of 20 of the centers have ERAM running?
    Mr. Whitaker. About half of them run it full time with no 
backup in use. The others are in extended runs. So they may do 
a 72-hour run to look for bugs, go back to the old system, off 
and on. So 18 of them are in some form of running it. Over half 
of them are running it 24/7, and the others are still in this 
on and off phase. Within the next year we will have all 20 of 
them running it full time.
    Mr. Larsen. So a couple of weeks ago we had a roundtable 
and the chairman had asked you to outline a set of milestones 
by May 21st in regards to implementing the Tier 1A 
recommendations from the NAC--NextGen Advisory Committee. Can 
you sketch out what your thinking has been in the last couple 
of weeks to get us to that May 21st date?
    Mr. Whitaker. As we have looked at this, there were two 
groupings of Tier 1 capabilities. The first grouping deals with 
PBN, multiple runway operations and surface data. That 
grouping--and I believe there are six of them--were identified 
as being very important and on the verge of being completed and 
should get high priority. We think those are the right ones for 
our immediate attention. We have had some conversations with 
the NAC subcommittee about that, and we believe that they agree 
with that.
    With respect to the date, we have a full NAC meeting in 
June. I am not sure of the date. I think it is early June. I 
think we have some concern that we ought to be validating the 
complete work with the NAC before it goes public. So we will 
talk with your offices about the timing of whether that would 
be an appropriate date or mid-May. But we believe we can be on 
track certainly with the work, and we will continue to talk 
with your folks about when to make that public.
    Mr. Larsen. Great.
    For Dr.--are you a doctor? Merely a mister like me?
    [Laughter.]
    Mr. Larsen. All right. Well, you ought to be a doctor.
    Mr. Filler. Thank you, sir.
    Mr. LoBiondo. So ordered.
    [Laughter.]
    Mr. Larsen. Can you talk about what R&D activities this 
budget of $158.8 million does fund here at the Technical 
Center, and do any of those dollars specifically focus on UAS?
    Mr. Filler. So to answer the second part, the answer is 
yes. About half of the dollars that are in the UAS, in the 
ballpark of around $3.7 million, are supporting activities that 
are ongoing here at the center. Of the R&D budget of $158 
million, $62 million or $63 million is work that is done 
specifically here at the center. A lot of the areas you saw 
this morning out at Research Row as I call it, those activities 
out there are supported by the R&D dollars.
    Mr. Larsen. How much flexibility do you have here at the 
center or as director of research to be flexible with those 
dollars, to move them from one bucket to the next bucket if you 
need to do that?
    Mr. Filler. We have very little authority to do that, sir. 
Basically, I have about a 2-percent reserve that I maintain to 
be able to help programs of that window. But again, those are 
budget line items, and we execute them as so programmed.
    Mr. Larsen. Right. In other words, Congress says that you 
have to spend X amount of dollars on this budget line item in 
research, and Y amount of dollars on that line item.
    Mr. Filler. That is what we do, sir.
    Mr. Larsen. And we would expect nothing less and nothing 
more.
    [Laughter.]
    Mr. Larsen. Obviously. But if someone were to ask you 
directly if you needed even a little bit more flexibility, how 
would you respond to that?
    Mr. Filler. So, 10 to 15 percent flexibility to be able to 
handle more tactical R&D needs. The planning for the R&D budget 
is a 3-year window to the future. By the time we get to 
execute, again, we are working on a 3-year-old plan. So the 
ability to adapt, just like technology today is very quickly 
changing, to meet those pop-up needs and the changes in our 
environment I think would be greatly appreciated.
    Mr. Larsen. Today on the tour we saw an example of an 
unmanned aerial system that technically qualified as a small 
system, but because of how far it flies, it flies like a large 
system. So how are you going to approach that as we are looking 
at the test sites? How do you answer this question about small 
UAS and their application when it might look small but it acts 
big?
    Mr. Filler. I don't know how to answer the question, sir. 
Forgive me, but that is more of a policy kind of topic.
    Mr. Whitaker. I think with UAS we have a segmented 
approach. We would like to, if you will, release as much as we 
can as quickly as we can. So the focus of the small UAS rule is 
to move more quickly on a category of UAS that we think poses 
the least amount of safety risk, which is likely to include 
line of sight as one of the characteristics. So a model such as 
we viewed this morning would not be characterized as small to 
the extent it was operated beyond the line of sight.
    Mr. Larsen. Thank you. I yield back.
    Mr. LoBiondo. For Mr. Whitaker, I understand the FAA 
intends to appeal the administrative law judge's decision on 
small UAS oversight authority issued last Friday. Can you tell 
us, is the FAA also planning to conduct an expedited emergency 
rulemaking for small UAS?
    Mr. Whitaker. We are appealing that ruling, and because it 
is an active matter, I can't really comment on the substance of 
that. But I will say that we do view this as a serious safety 
issue and we are looking at our options to make sure that we 
keep the NAS safe during the appeal. The appeal will stay the 
ruling, so in that sense it won't take effect. But an emergency 
rulemaking is one of the options that we are looking at.
    Mr. LoBiondo. Mr. Filler, we talked about this a little 
bit, of the work that is being done here. What sort of research 
and development, if you can expand a little bit more than what 
you already said, is the Technical Center doing with common 
airborne sense and avoidance technologies? And are you working 
with the DOD on any of this research?
    Mr. Filler. We do work jointly with the Department of 
Defense and NASA, as well as industry. I can't at this moment 
recall the specific tests that are ongoing, but as you can see, 
we do a lot of testing that is going on here. But I do know 
that we do have routine flights of our test fleet to ensure 
that new systems are being safely integrated. This last summer, 
we did fly the ACAS-X system, which is again a collision 
avoidance system, to test out new logic. This coming summer we 
will, in fact, be flying variants of it that will be dedicated 
in using logic that we expect the small UAS to conform to.
    Mr. LoBiondo. Thanks, Dennis.
    Rick, do you have anything else?
    Mr. Larsen. Yes. Back to sense and avoidance, I am just 
curious because last year, a year and a half ago, I went up 
with one of the contractors who developed sense and avoid, and 
we actually flew ourselves towards Mount Constitution on Orcas 
Island. I got close enough that it set off the alarm system. I 
don't advise that for anybody.
    [Laughter.]
    Mr. Larsen. But they wanted to show how it works, and that 
was obviously a pilot in the flight deck. So I am curious about 
what the difference between a sense and avoidance system is on 
a manned system would be compared to an unmanned system, if it 
is something that operates automatically given an obstruction 
in the air inside a certain envelope.
    Mr. Filler. So, the term we use here is the ``mark one 
eyeball.'' Obviously, the pilot has the responsibility to see 
and avoid. So, barring the absence of all electronic systems, 
we still rely on the eyeball and the visual cues. They are 
very, very hard to, in fact, emulate in the electronic systems. 
So, again, you don't have the pilot and his ability to discern 
to know that is not a real target, that is not something I am 
worried about. As we go into UAV operations, or even commercial 
GA, being a pilot at the moment, it is very difficult to see 
those aircraft out there. So not all the objects out there have 
active transmitters necessarily on board them yet so that we 
can actually see them. It is not a very trivial problem to 
solve. It still requires a lot of research.
    Now, as ADS-B is implemented on almost everything that is 
on an airport or that flies, then we will have active beacons 
that are telling us where all these objects are in time and 
space, and we will have better situational awareness. But until 
the ADS-B is implemented throughout the national airspace, we 
still have to deal with the limitations of human vision.
    Mr. Larsen. Thanks. Thank you.
    Mr. LoBiondo. Well, Mr. Whitaker and Mr. Filler, thank you 
very much.
    We will now adjourn from the first panel and ask the second 
panel to come up, take just a little recess, as long as it 
takes to get set up for the second panel.
    [Recess.]
    Mr. LoBiondo. We are ready to get started with the second 
panel.
    I would first like to welcome Mr. Pete Dumont, president 
and CEO of the Air Traffic Control Association.
    Pete, thank you for being here.

 TESTIMONY OF PETER F. DUMONT, PRESIDENT AND CEO, AIR TRAFFIC 
CONTROL ASSOCIATION; CYNTHIA CASTILLO, PRESIDENT AND CEO, CSSI, 
   INC.; MELVIN DAVIS, NATIONAL REPRESENTATIVE FOR NEXTGEN, 
   NATIONAL AIR TRAFFIC CONTROLLERS ASSOCIATION; BEN GIELOW, 
   GENERAL COUNSEL AND SENIOR GOVERNMENT RELATIONS MANAGER, 
     ASSOCIATION FOR UNMANNED VEHICLE SYSTEMS INTERNATIONAL

    Mr. Dumont. Thank you. Chairman LoBiondo, Ranking Member 
Larsen, members of the committee, thank you for the opportunity 
to speak to you today.
    I am speaking on behalf of the Air Traffic Control 
Association. ATCA was formed almost 60 years ago. We currently 
have more than 3,000 members from all sectors of aviation. ATCA 
has partnered in one way or another with the Technical Center 
for the last 50 years. ATCA's primary mission is to promote the 
science of air traffic control.
    As you know, NextGen is a complex, all-encompassing 
transformation of our current NAS. It requires a technology 
refresh, as well as procedural and policy changes. To 
accomplish such a large, complex project, the right management 
structure with the right capabilities must be in place. In 
recent months, the administration has appointed a new Deputy 
Administrator, who you just heard from, and the FAA selected an 
Associate Administrator for NextGen, Mr. Ed Bolton. This is 
certainly a step in the right direction. With this new 
management structure an evaluation of current assets and 
alignments must certainly occur.
    Any strategic realignment or reorganization of the NextGen 
organization must surely include the Technical Center. We are 
encouraged that Mr. Bolton, in his short time at the FAA, has 
already visited the Technical Center on five separate 
occasions. The last time he was here, he used a simulator to 
gain some intel prior to taking a familiarization flight on an 
Airbus in preparation for a NAC meeting. Mr. Bolton seems to 
understand the value of the center and the critical role that 
it must play in the implementation of NextGen.
    The Technical Center has many capabilities to move NextGen 
forward, as I am sure you saw on your tour of the facility 
today. I have outlined a number of those capabilities in my 
written testimony and would be glad to answer any questions 
regarding that testimony.
    The Technical Center is currently performing NextGen work 
on datacom with Harris Corporation and with Exelis on ADS-B. 
These are but two models in which the Technical Center is 
partnering with industry to move NextGen forward. The models 
are very different--one incorporates the use of industry 
personnel on-site at the Technical Center to work directly with 
the labs. The other collects data in the field for verification 
and validation by and at the Technical Center. I use these two 
examples to show the different models available. There are many 
industry partners and ATCA members performing indispensable 
work on NextGen for the FAA.
    We believe one role for the Technical Center would be as 
the collection facility for all of the UAS test data from the 
six recently identified test sites throughout the U.S. The 
Technical Center could analyze and report out on the work being 
done at these facilities. Verification and validation both 
against specification and requirements cannot occur 
independently at six different sites. The lack of one central 
location will lead to duplication of efforts, siloed results, 
increased costs, and a multitude of other inefficiencies. This 
is only one of the ways the Technical Center can help move 
NextGen forward. I was pleased to hear that the FAA supports 
this approach.
    The Technical Center requires both external and internal 
collaboration to be successful. For all of the state-of-the-art 
technology, people and processes in place, they are resource 
constrained and cannot do it alone. They must collaborate and 
partner to accomplish the goal of NextGen implementation.
    This collaboration must occur both internally with 
different departments within the FAA, and externally with 
industry, academia, users, associations, and other Government 
agencies.
    Internally, the Government must partner with program 
managers of individual pieces of the NextGen solution, as well 
as operators, through the union and facility management. These 
are the experts on requirements.
    Externally, the FAA must continue to collaborate with 
industry to not only integrate new equipment and technologies 
but new regulations and procedures. Industry has the expertise 
to augment the skills and talents within the FAA at the 
Technical Center and to fill in the holes where the expertise 
is lacking. Industry already brings lessons learned to the 
table from large-scale integration and transformation programs 
in other industries, as well as within the FAA.
    The Technical Center must also continue to partner with 
academia, as they have with the 14 universities taking part in 
a new 10-year research effort into alternative aviation fields, 
another area of NextGen.
    And the Technical Center must continue to partner with 
associations, like ATCA, to ensure an open and frank discussion 
of solutions, planned and in progress, with the entire aviation 
community. This will enable the industry experts, users, and 
other association groups to understand exactly what the FAA 
needs in terms of resources, research, expertise and funding. 
Every significant air traffic control challenge the aviation 
industry has faced in the last 58 years has been discussed and 
debated at ATCA symposiums.
    The Technical Center must itself be a NextGen facility, 
fully scalable both up and down. As the demands for support 
increase, the center must be able to expand to handle the 
workload, and as the workload decreases, the opposite must 
occur. This will require additional support from contractors 
for personnel, as well as FAA employees. NextGen must move 
forward, and the Technical Center plays a vital role in its 
development and implementation.
    I will be glad to answer any questions you may have 
regarding this opening statement or my testimony. Thank you 
very much.
    Mr. LoBiondo. Thank you, Pete.
    Now we will turn to our next witness, Ms. Cynthia Castillo, 
president and CEO of CSSI, Inc.
    You are recognized.
    Ms. Castillo. Thank you and good afternoon. First I wanted 
to thank Congressman LoBiondo and members of the subcommittee 
for the opportunity to speak here today. I am specifically very 
proud to represent industry.
    CSSI works with Government and commercial clients to ensure 
transportation systems are designed and equipped to safely and 
efficiently move people and materials. We leverage our deep 
roots in aviation to pioneer innovative analytics and best 
practices that maximize system capacity, decrease costs, and 
improve safety.
    CSSI has participated firsthand in the evolution of the 
aviation industry over the last two decades. We have driven 
over 140 operational improvements as direct results of 
corrective actions taken based on our voluntary safety 
reporting programs. We have maximized the prospects of safety 
aviation travel with newer, stronger safety standards. We have 
helped thousands of aircraft meet RVSM certification 
requirements, therefore maximizing airspace capacity, reducing 
fuel burn, and saving millions of dollars in fuel costs.
    In addition, we drive research, test and evaluation efforts 
to identify how unmanned aircraft systems can safely be 
integrated into the NAS, and we have supported NextGen 
initiatives that cut flight miles and increase fuel savings.
    The Technical Center is one of our key partners. Most of 
the work we do at the Technical Center directly contributes to 
the aviation modernization efforts and drives results in three 
key areas: improving aviation safety; the safe integration of 
the UAS into the NAS; and NextGen.
    Safety, as you know, Mr. Chairman, is the aviation 
industry's top priority, and improvement initiatives are 
prevalent throughout all aviation modernization efforts.
    CSSI has fostered the development of safety management 
systems that enforce newer and stronger standards for managing 
safety risk and accountability, and minimizing the risk of 
safety incidents occurring. We also drive the development of 
nonpunitive safety reporting programs and industrywide 
information sharing programs.
    A cornerstone of our aviation safety work at the Technical 
Center is the development and implementation of global and 
regional separation and performance-based standards. As part of 
our role, we work with the international regulators and 
participate in every step of the international standardization 
process.
    Our work in separation standards includes the successful 
implementation of reduced separation standards for specific 
types of aircraft in the New York Oceanic Flight Information 
Region. In addition, as part of the North Atlantic Datalink 
Mandate, we have increased the percentage of flights that use 
future air navigation systems and text-message-like 
communications between pilots and controllers, resulting in 
enhanced operational safety in the North Atlantic.
    Introducing UAS into the Nation's airspace is challenging 
for both the FAA and the aviation community. CSSI works with 
the Technical Center to bring a real-world perspective to 
modeling and simulation scenarios that emulate this complex air 
traffic control environment. The lessons learned can be relied 
upon to accurately characterize the workloads expected in a 
NextGen environment.
    Maximizing the safe and efficient use of airspace in 
airports is critical to accommodate future aviation demand. The 
aviation industry is working hard to meet the challenge of FAA 
forecasts that predict 1 billion passengers by 2015. To meet 
this challenge, CSSI works closely with the Technical Center in 
support of NextGen concepts such as testing and implementing 
pilot projects under the Runway Incursion Reduction Program and 
optimizing airspace and procedures in the metroplex in 8 of the 
21 regions, with 10 more planned.
    The FAA is working tirelessly to modernize what is already 
the safest and most progressive aviation system in the world. 
At CSSI, we are proud of how we have partnered with the 
Technical Center to integrate new technologies into the NAS, 
all of which will enhance safety, save fuel, reduce delays, and 
increase capacity.
    Government and industry must continue to collaborate 
closely to achieve NextGen milestones in the face of tight 
deadlines and budget challenges. It is imperative for the 
future of air transportation and for our Nation's economy.
    Mr. Chairman, this is why it is so important for the FAA 
and the Technical Center to receive the support they need to 
stay at the leading edge of aviation technology and to 
contribute to set the gold standard for the rest of the world. 
The traveling public deserves nothing less.
    This concludes my testimony.
    Mr. LoBiondo. Thank you, Cynthia.
    Our next witness is Mr. Melvin Davis, National 
Representative for the NextGen National Air Traffic Controllers 
Association.
    Thank you for being here.
    Mr. Melvin Davis. Mr. Chairman, Chairman LoBiondo and 
Ranking Member Larsen, thank you very much for the opportunity 
to be here. NATCA is honored to have this opportunity to 
address the committee on this fine afternoon in New Jersey.
    NATCA takes seriously its responsibility to represent the 
20,000 bargaining unit members around the country, some of who 
are stationed here at the William J. Hughes Technical Center. 
We embrace the Technical Center's role in the research, 
development, testing, integration, sustainment, and 
modernization of the components of the National Airspace 
System.
    The aviation industry has collectively recognized that the 
transition to a next-generation air transportation system will 
not happen all at once. Progress will be methodical, and it 
will be iterative. It will require new systems and capabilities 
to be deployed alongside legacy systems.
    The Technical Center is essentially a miniaturized version 
of a complete legacy National Airspace System in one location. 
With ATOP, micro-EARTS, TAMR, ERAM, TFMS, TBFM, SWIM, and the 
voice switches all located in one place and maintained at the 
same readiness level as those systems deployed across the 
Nation, the Technical Center truly represents a one-stop 
shopping opportunity to test and initially deploy the next-
generation systems in conjunction with our now-gen systems. 
This physical capability, combined with the technical experts 
from many of the different aviation domains working here, 
enabled by relevant Federal acquisition and operational 
policies, represent a truly unique national asset.
    The Technical Center is the location where many of our 
current air-traffic controllers come to interact with both the 
FAA technical staff and the civilian team members from the 
various vendors, contracted by the Government, to produce the 
systems currently deployed across the NAS. These interactions 
within the FAA firewall with equivalent systems to those which 
they operate daily back home are invaluable to the current 
sustainment and future progress of the NAS. This value is 
directly measurable in three ways.
    First, by increased efficiency from current systems. An 
example of this is the second-level support that extends the 
lifespan and expands on latent capabilities of current systems. 
So, as we deploy NextGen systems alongside the legacy 
equipment, the second-level maintainers here in New Jersey 
assist with resolving the inevitable interactivity issues that 
crop up.
    Second, by reducing problem reports with systems during the 
deployment phase. For example, operational test and evaluation 
combined with verification and validation expedite resolution 
of problem reports. The problem reports are a tracking 
mechanism used by controllers and maintainers to resolve issues 
associated with the deployment of new systems such as ADS-B or 
time-based flow management.
    The third way we can measure these enhancements is by 
reducing the risk of fielding new systems. An example of this 
is the human factors community, work done by the human factors 
researchers to detect and resolve conflicts between humans and 
machines, referred to as human-machine interface or computer-
human interface. This work is essential to ensuring that the 
capabilities like data communications will function as intended 
once deployed.
    Another significant capability resident here at the William 
J. Hughes Technical Center is the scientific community that 
supports the wake turbulence programs. The scientific 
evaluation of wake turbulence, which is very in-depth and very 
specific, has produced relatively simple solutions derived from 
that body of work which was conducted mainly here at the 
Technical Center and has recently been deployed within the NAS. 
The result of these deployments have had dramatic effects, 
creating significant capacity enhancements both safely and 
efficiently.
    I would like to close my verbal testimony by stating that 
all of these things that I have described are the result of a 
harmonious relationship between Government, labor, scientists, 
technicians, and private vendors, made possible by the common 
understanding that the whole is greater than the sum of its 
parts.
    On behalf of NATCA, I would like to thank you again for the 
opportunity, and I look forward to your questions.
    Mr. LoBiondo. Thank you, Melvin.
    Our next and final witness is Mr. Ben Gielow, the general 
counsel and senior government relations manager for the 
Association of Unmanned Vehicles.
    Ben, thank you for being here.
    Mr. Gielow. Chairman LoBiondo, Ranking Member Larsen, thank 
you for this opportunity to speak to you today. It really is a 
true honor for me as a few years ago I was staffing then-
Congressman Vern Ehlers on this committee, which happened to be 
his favorite committee. So it is a real pleasure to be here.
    Today I am speaking on behalf of the Association for 
Unmanned Vehicle Systems International, AUVSI. We are the 
world's largest nonprofit organization devoted to the 
advancement of unmanned systems.
    As you know, unmanned aircraft systems, or UAS, increase 
human potential, allowing us to execute dangerous or difficult 
tasks safely and efficiently. This technology also has the 
potential to create tens of thousands of jobs and tens of 
billions of dollars in economic impact.
    Because of costs and rapidly advancing capabilities of 
small UAS, such as this 2-pound quad copter that I brought for 
show and tell, it will comprise a majority of the developing 
commercial market. Most of these operations will be conducted 
below 500 feet, with limited need to fly above 1,500 feet.
    However, the current pace of UAS integration specifically 
for small UAS is simply unacceptable. The FAA has been working 
on a rule for small UAS since 2009, which should have been 
finalized in 2011. Unfortunately, the FAA does not plan on 
releasing this rule now until the fall, which means it likely 
won't be finalized until sometime in at least 2015. The longer 
the FAA takes to write these regulations, the greater the risk 
to aviation safety because people are already flying these 
systems, as a simple YouTube or Google search will be evidence 
of that.
    The need for this rule became even more evident last 
Thursday when a judge with the NTSB ruled that the FAA has no 
authority to regulate model aircraft or unmanned aircraft 
systems because they have not gone through formal rulemaking. 
As was stated earlier, the FAA has already appealed this 
decision and it may, in fact, issue an emergency rule. That is 
all yet to be determined. We hope that if an emergency rule is 
issued, that it will not be overly restrictive on small UAS.
    Regarding work at the Technical Center, the FAA has long 
complained that it needs data to safely integrate unmanned 
aircraft systems, and the Technical Center is the logical place 
to do that data work. However, the UAS research department at 
the Technical Center is understaffed, it is under-resourced, 
and its current research is not based on a strategic plan to 
integrate unmanned aircraft systems into the NAS.
    Although the FAA's UAS research budget has grown in recent 
years from approximately $4 million in 2013 to $8 million in 
2014, and possibly $9 million in 2015, there is currently less 
than five full-time UAS researchers here at the Technical 
Center. The rest of the researchers are either contractors or 
on loan from other departments. We would like to see this core 
team expanded.
    Currently, all UAS research at the Technical Center is 
funded through the FAA's research and engineering and 
development budget, which provides very little flexibility on 
how funds can be used. I think that was addressed a little bit 
earlier. In this research budget, all FAA research programs 
have to compete against one another, and it is the FAA's 
technical community representative groups that makes the final 
decisions on what projects do, in fact, get funded.
    In 2014, six UAS projects were approved by the TCRG, with a 
total budget of approximately $8 million. Interestingly, none 
of them were for UAS test site data management. However, now 
that the sites have been selected, the FAA is in need of a 
location to store and analyze the data, as well as resources to 
do that data analysis. Because no new money is available in the 
research budget because of inflexibility, the FAA was forced to 
cancel one of its existing projects and use about half of that 
amount, roughly $500,000, to initiate the test site data work.
    In our opinion, if the FAA is committed to using the test 
sites to collect and analyze data, $500,000 is going to be 
inadequate. Furthermore, according to the FAA, because they 
were not given money to start up or manage the test sites, the 
FAA is unable to direct any research work at these test sites. 
So this begs the question, what type of data will the test 
sites collect? Will everyone be speaking the same data 
language? Where will the data go? We assume here at the 
Technical Center. How will proprietary information be 
protected? How will the data be used? How will duplicative work 
be avoided?
    The FAA hopes to iron out these details when it brings the 
six sites together here at the Technical Center later this 
month.
    Lastly, we would like to request that the committee closely 
monitor the FAA's compliance with a provision in the 2014 
defense bill that requires a report to Congress this summer on 
the resource requirements needed to implement the UAS roadmap. 
Understanding how much it will cost to integrate unmanned 
aircraft into the national airspace will help us to understand 
the size and the scope of this problem. If, for whatever 
reason, the FAA can't meet that deadline, then we suggest the 
GAO possibly be tasked with it.
    UAS offers great promise, but before this industry can take 
off, we need the safety rules, and it is in all of our best 
interests to help the FAA get the data it needs to write the 
safety regulations. The Technical Center, along with industry, 
Government, and others, are willing to do that work.
    So again, thank you for this opportunity. I am happy to 
answer any questions.
    Mr. LoBiondo. Thank you.
    Just for clarification, what you have in front of you is 
not a model? It is actually a working size?
    Mr. Gielow. So the only thing that differentiates a model 
aircraft with an unmanned aircraft is the intent of flight. So 
you could buy this system yourself, Mr. Chairman, and fly it, 
and as long as you are doing it for recreation or for fun, if 
you have a smile on your face, you would be considered a 
modeler. You would not have to comply with FAA regulations.
    Mr. LoBiondo. What you have in front of you actually can 
fly?
    Mr. Gielow. Yes, yes. This is an actual system. They did 
not give me the ground control station, so I can't fly it, but 
it does have a system underneath here. If you were to use those 
pictures and sell those pictures, the FAA would deem that a 
commercial activity and that would be prohibited.
    Mr. LoBiondo. Prohibited. OK. Thank you.
    The first question is sort of a multipart question for 
anyone on the panel who would like to take a shot at it. What 
do you see are the major challenges to integration of UAS into 
the national airspace? What area do you think is going to be 
the most important to focus on first? And based on your 
knowledge of the Technical Center, how can the resources and 
expertise of the Technical Center be leveraged to help meet the 
challenge?
    Who wants to take the first shot at that?
    Mr. Gielow. I will go ahead and jump in and take this 
first. So the challenges for integration, there are a lot of 
them. I mean, this is a huge challenge, and as was talked about 
in the first panel, you know, systems like this that weigh 2 
pounds, all the way up to the systems that weigh 30,000 pounds, 
this should not be a one-size-fits-all kind of solution that is 
needed.
    I think, to emphasize what Director Filler said, if we 
focus on things that we could do now--for instance, small UAS 
operations over farms or some kind of activity where there is a 
minimal safety risk--to get some sort of commercial activities 
now will alleviate a lot of the built-up pressure faced by the 
industry today, which is currently prohibited from flying at 
all. So I think if we bite off a little bit, that would help.
    As far as the work that the Technical Center can do, they 
are doing good work. They are doing a lot of sense and avoid 
work, some command and control stuff. But the Technical Center 
has never done research work in small, unmanned aircraft. All 
of their work has been focused on the big stuff, flying in 
Class A airspace. The reality is the commercial market is in 
small UAS.
    Mr. Melvin Davis. Mr. Chairman, as an air traffic 
controller, obviously it goes without saying clearly where our 
hearts are in the matter. There are some inferences 
automatically when you start talking about unmanned systems or 
autonomous systems, that there is an inherent lack of viability 
to control what it does, being no actual pilot. So there are 
clear concerns there, but those again are just kind of built 
in. We will need to work through those. We will need to work 
with the UAS committee on those.
    But what I would say as far as major challenges in general 
as far as integrating UAS into NAS is kind of back to that air 
traffic control aspect. Is there going to be a pilot that is 
operating it, or is it just an operator?
    So one of the things that happens in the system, in this 
system today, is there are humans that have procedures and 
training, and generally when things go well, we are following 
the procedures and training to the tee, and when things go bad, 
there are fallback procedures and there is fallback training. 
So I think when you start to get down a little bit lower into 
the operator category, if we are not ensuring that those 
procedures and training are there or built in or regulated, we 
could see some challenges there.
    So that goes back to the first part of your question, what 
is a major challenge.
    Another one is what the role of the Technical Center will 
be and what role it could play. I think that the Technical 
Center is uniquely situated to greatly assist the effort to 
integrate UAS in the NAS for two reasons. One is because of all 
of the resident systems that are already here that represent 
what is operating already in the NAS. In addition to that, 
there has been some wisdom applied to it to bring in UAS 
capabilities into the NIEC lab. That was an investment by the 
Federal Government to deploy a lab here that had NextGen 
systems in it and that also put UAS systems into it.
    So I think we have a neat opportunity there on the NIEC 
lab. The second piece of that, though, as Mr. Gielow mentioned, 
the proprietary data, the ability of the Federal Government to 
bring in multiple vendors to share information and have a 
firewall to protect it, and then we could evaluate that 
information and make decisions without a vendor necessarily 
losing a competitive advantage.
    Mr. LoBiondo. Anybody else?
    Mr. Dumont. Yes, Mr. Chairman. Integrating UAS into the 
National Airspace System is probably the most difficult task we 
have ever attempted since the beginning of flight. Normally it 
has been faster and larger aircraft which have their own issues 
integrating into the NAS. The problem with UAS integration is 
there are so many different kinds with so many capabilities and 
so many different missions.
    You spoke of sense and avoid and how you will have piloted 
aircraft. Well, piloted aircraft, a Global Hawk, which is an 
unpiloted aircraft, have a large payload capability, and they 
can have the equipment on board for sense and avoid. To have 
sense and avoid on this particular UAS right here, that would 
be much more difficult.
    How the Technical Center can help us with those types of 
issues is to partner with industry, bring industry in to find 
out what their needs are, what their capabilities are, what 
type of vehicles actually want to fly in the airspace, and 
develop a concept of operations which many industry partners 
have done on many different types of projects. So they could be 
very helpful in that. And then use the NIEC, like Mel was 
referring to, to model, simulate the flying of these different 
types of UAS in different types of airspace to see what the 
results would be so that we can integrate them successfully 
into the airspace.
    Ms. Castillo. I would like to just expand on some of the 
challenges that were already addressed, specifically with the 
standards and procedures of operating in the NAS. In 
integrating UAS, I believe some of the work that the Technical 
Center does today specifically with modeling and simulation, 
realistic scenarios of how UAS integrated into the NAS operate 
within the NAS, continuation with the work that they do provide 
here, a lot of the modeling and simulation, CSSI has been very 
intimate with that.
    Mr. LoBiondo. Rick?
    Mr. Larsen. Mr. Davis, has the FAA or has NATCA 
contemplated new training or procedures for air traffic 
controllers as UAS is integrated into the national airspace?
    Mr. Melvin Davis. Yes, Ranking Member Larsen. The good news 
is--and I should have stated it foremost in my initial response 
to Chairman LoBiondo's question--the good news is that there is 
an incredible amount of UAS operations occurring daily in the 
NAS with multiple partners and with tons of actual piloted 
aircraft interactions and controllers involved. Somehow or 
another, in spite of all the delay and bureaucracy that goes 
on, there is a lot of learning that is going along with that.
    So I can say that if we look back in 2, 3, 5 years or so, 
are we smarter now than we were then? Yes. Are we capturing 
those lessons and applying them and starting to lay down some 
of the basics? The answer is yes.
    Could we be doing it better and more methodically in 
addition to all the other work that is going on? Absolutely. 
Could there be progress? Could we be expanding and doing it 
better? We could.
    But the good news is that, yes, through that concept of 
partnership, I will just take for just a moment and expand on 
the scenario that has been deployed across the NAS for the last 
couple of years. It is called a trust culture, and it was an 
effort by the Federal Government to actually trust the 
employees, both on the airline side and the controller side, to 
say tell us what is going on so that we don't have to look back 
at an accident, which is a risk-based view. We can look forward 
at problems via a predictive mode.
    So we have employees that fill out extensive reports about 
something that didn't result in an accident, but it was an 
incident, and it would not have borne the full investigative 
arm but it encourages people to tell the truth and to tell 
deeply and specifically what happened so that we can put it 
into a database and then later mine that database to find hot 
spots where things might occur.
    That is a classic example of, again, wisdom and forward-
thinking and trust, and we are able to mine those databases for 
both training and for predictive safety measures and those 
types of things. So that will bear immense fruit as we move 
forward, and that program is called Aviation Safety, et 
cetera--ASIAS.
    [Laughter.]
    Mr. Melvin Davis. It is awesome.
    Mr. Larsen. Frank and I both know this, and some folks. 
This may be your first hearing you ever participated in ever, 
even watching. There is just a lot of abbreviations and 
acronyms, and we get a little too used to it, and we apologize.
    Mr. Melvin Davis. You are very gracious. Thank you.
    Mr. Larsen. Mr. Dumont, with regard to the symposia that 
ATCA has, have you developed a consensus on UAS? And second, 
have you developed a consensus on what the next big question is 
for ATCA to address? What is the next one?
    Mr. Dumont. Have we developed a consensus on----
    Mr. Larsen. A solution on how to approach things. I mean, 
you have symposia. I know they are in Atlantic City, and I know 
it is not just for fun. You say you struggle with the 
questions. You have the input. Do you come up with consensus 
recommendations as an industry through symposia on what to do 
about any of the big questions that we are facing?
    Mr. Dumont. Oh, we do, yes. I thought you were talking 
about just UAS. And, no, it is not just for fun. We do a lot of 
work in ATCA. As a matter of fact, one of the comments I get at 
our 3-day symposium here in Atlantic City with the Technical 
Center is that we get 6 months of business done in 3 days.
    We have come to consensus on a lot of different issues. 
What we normally do when we come here to the Technical Center, 
it is a technical exchange of information. My members, a 
majority of them, want to know what is going on here at the 
Technical Center, and as they get briefed on it and they 
understand all the programs that are in place here, they walk 
away with ways that they can help the Technical Center and then 
come back and work with the Technical Center to help them 
advance their mission.
    Mr. Larsen. What is the next big question for us, then? 
Dealing with UAS? Working through NextGen? UAS is a big 
question. Do you know what the next big one is?
    Mr. Dumont. I don't know what the next big one is. I mean, 
as far as UAS is concerned, concept of operations. That is a 
very important thing, and we need to get that straight.
    Mr. Larsen. On data sharing, have you all as an association 
group come to conclusions on data sharing? One question we hear 
in the discussion about UAS and getting the data from test 
sites is the proprietary nature of some of the data.
    Mr. Dumont. Right.
    Mr. Larsen. Have you all as an association group come to 
some conclusion about how the Technical Center or FAA should 
address that proprietary data?
    Mr. Dumont. Well, no, because there really is no solution 
yet. We haven't been told how the data collection is going to 
occur. Is it going to be at individual sites? Is it going to be 
shared and collected here at the Technical Center? Which we 
think is the right model.
    I think, Ben, you have some information about data sharing?
    Mr. Larsen. Go ahead, Ben.
    Mr. Gielow. If I may, right now I don't think there is a 
data plan for the U.S. test sites. I mean, when they bring all 
six together here at the Technical Center, I think they are 
going to hash it out. But again, because the FAA doesn't have 
any funding for this, the FAA can't really tell the sites what 
testing to do. So hopefully everyone will come to an agreement 
on the bits that they need to collect and they can all speak 
that same data language, which I am terrible at. I hope I don't 
have to get too much deeper.
    Mr. Melvin Davis. I have one point that I believe is 
relevant to the data sharing question and something that I have 
just experienced within the last 4 or 5 months in the NextGen, 
the broader NextGen effort, and it kind of goes back to a 
statement that I made earlier about trust and about the ASIAS 
program is a trust-based program and it is a partnership 
between the Federal Government and the operators within the 
NAS.
    At the NextGen Advisory Committee level, there has been a 
renaissance, if you will, on the thought of data sharing on 
behalf of the airlines. There is fuel data sharing and 
operational data sharing to go back and prove the benefits of 
NextGen, and I firmly believe that it is because of the trust 
that has been built that the NextGen Advisory Committee, those 
relationships between Government and vendors that sit in a room 
together once every 3 months and work out the details and say, 
you know what, as an aviation community, we have to work 
together to improve the community; whereas I think before, 
prior to that trust being built, there was a standoffish 
attitude that said I am going to protect my data, even if it is 
to my detriment.
    So I see that renaissance there, and I think there is an 
opportunity to potentially establish relationships with the UAS 
operators and leverage that trust.
    Mr. Larsen. And finally, Ms. Castillo, could you pick one 
of the projects that your company has worked on and be more 
specific about the role that you all played in supporting the 
Technical Center?
    Ms. Castillo. Sure. I was thinking of that question. I will 
stick with separation standards. I know a lot of the 
conversation today has centered around the UAS, and in my 
belief the same separation standards will always be a priority 
of the FAA.
    We have worked closely with our Technical Center partners, 
and specifically with global and regional separation standards 
components, and through our work we have helped thousands of 
aircraft achieve RBS-M requirements. So we have helped through 
really all aspects of reduced vertical separations minima RBS-M 
requirements, from development and implementation to the 
assisting with approval of flying in that airspace, and I am 
really proud of the work that we have done with our partners 
here in separation.
    Mr. Larsen. So what does that work entail?
    Ms. Castillo. So, a lot of the work of the safe separation 
of aircraft which, when you are introducing other obstacles or 
other demand for users in aviation, we have to always look at 
how those things are safely integrated in addition to how 
aircraft and things integrated in the NAS are safely separated. 
So to me, it is all about increasing, maximizing the capacity 
of airspace. So we look at models and concepts of airspace 
redesign, and it specifically touches a lot of the performance-
based navigation.
    So to me, it is about maximizing capacity of airspace, 
thereby reducing fuel costs and fuel burn and emissions, if you 
will, and saving a lot of dollars for the flying public.
    Mr. Larsen. I yield back.
    Mr. LoBiondo. This is also a question for any one of the 
panel. What role will partnerships between FAA, industry, 
labor, and academia play in the future of NextGen, and what 
role do you see the Technical Center playing in developing and 
utilizing these partnerships?
    Ms. Castillo. I will start. I appreciated the first panel 
talking about the partnerships because collaboration is going 
to be key to our continued understanding of how certain impacts 
to the NAS will occur.
    CSSI, my company, has been partnered with the FAA for over 
23 years, but specifically with the FAA Technical Center for 
about 20 years, and we feel that CSSI and companies like CSSI 
augment and complement a lot of the talent, the technical 
talent here at the Technical Center in skill sets, as well as 
capabilities, to, if you will, show up in a broader, deeper way 
as a team, taking on the challenges or the initiatives that are 
at hand.
    And I think recently in some of the challenging times of 
budget constraints, companies, contractors, industry can 
provide the skill sets, the specialized skill sets to perform 
duties, whether they are long- or short-term. So we have 
readily available resources to come in and work a task, whether 
it be 3 months or so.
    So I think augmenting and complementing the skill sets 
here, the partnerships with universities certainly is an avenue 
for recruitment and the future operators in leadership, if you 
will, of what will be running and operating the FAA and all of 
the challenges that we are dealing with today.
    Mr. Dumont. There are multiple partnerships, internal and 
external partnerships that have to occur, internal partnerships 
with the users, the operators, the program managers, as I 
mentioned in my opening statement. That is to define the 
requirements and make sure we get them right. Then we need to 
partner with industry to bring some of those solutions to the 
table that we might not have thought of within the industry. 
They fill the holes that we don't have expertise-wise, and they 
bring experience to the table from multiple programs in 
different industries so that we can learn from that what we 
might not have thought of. That helps us to address the 
requirements and produce outcomes that are measureable so that 
we can measure our success.
    Mr. Melvin Davis. So, one of the things that I have been 
blessed with is the opportunity to work in the Federal 
Government in a time of no partnership, in a time of very 
strong and deep partnership. I can tell you, based on the deep 
relationships that I had before we went into those times and 
those relationships I was able to maintain and then enhance 
afterwards, it is a very passionate point of mine that I would 
like to make that the value of partnering with the human 
capital, ensuring that there is clear and open communication on 
the human side, especially as we move into these complex 
systems of systems, there are interactions that will occur that 
no one will be able to understand and you will not be able to 
map back and clearly explain exactly what went wrong.
    But with the value of those strong partnerships, of being 
able to have honest and open dialogue, to be able to at least 
bracket certain corners of what happened and say, OK, we don't 
want to go there again because of those complexities, but to be 
able to understand as much as we can about them will prove 
invaluable as we continue to deploy systems that overlay each 
other and interact with each other.
    Mr. Gielow. I would just like to add that the test sites 
themselves would like to see the Technical Center more 
involved. Our members would like to see the Technical Center 
more involved. In fact, I think some of our members had 
actually either loaned unmanned aircraft to the Technical 
Center or simulators for the Technical Center to use in some of 
their UAS work because this was obviously very new to them. I 
think that our members are interested in continuing that 
relationship.
    Mr. LoBiondo. Mr. Dumont, this one is for you. We think one 
of the biggest challenges currently facing us in the short term 
for NextGen implementation is rewriting the controller handbook 
to allow the use of NextGen procedures in a mixed-equipment 
environment. Do you think that the Technical Center can use 
tools like the NIEC to help facilitate that, or any other 
suggestions to help facilitate that?
    Mr. Dumont. OK. I think those are two separate questions, 
actually. So I think we absolutely need to use the NIEC. As we 
talked about briefly, the NIEC is very important in its role of 
being able to simulate the current environment, introduce new 
technologies, see how those new technologies work in different 
simulated scenarios, whether it be a busy timeframe or a not-
busy timeframe. What works at JFK might not work in Seattle. So 
that is important.
    But the role of the NIEC would be to develop a solution 
that can be implemented in the airspace. And then once that 
solution has been developed, you will need to rewrite the 
handbook so that the controllers are aware of what the 
procedures, rules and regulations are to be able to use that 
new technology and implementation.
    Mr. Melvin Davis. I think, Mr. Chairman, if you don't mind, 
actually on the specific controller handbook, 7110.65, my 
handbook----
    Mr. LoBiondo. What was that again?
    [Laughter.]
    Mr. Melvin Davis. I would say that there was the previous 
chief operating officer at FAA, David Griswold, identified very 
accurately a lag in the deployment of technology and the waiver 
of the use of that technology, and then the 
institutionalization of that within the 7110.65. So there was a 
workgroup that started that was hyper-effective at lasering in 
and getting those changes into the 7110.65 and able to make up 
that lag in a very short period of time. It would be 
unfortunate to see that lag come back.
    As far as the NIEC is concerned, specifically we could 
front load that process, right? And predict what we need to 
change in the .65, some of the use of the capabilities built 
into the NIEC. And I think it goes back to your original 
question, Ranking Member Larsen, to Mr. Filler, about having 
some flexibility within his budget to be able to say, listen, I 
know I am going to need to do something at that NIEC within the 
next 3 years; I am not sure what, so give me some room to 
maneuver in the meantime, and we can use that flexibility to 
make sure we are ready when the time comes.
    Mr. LoBiondo. Thank you.
    Well, I want to thank our panelists, both panels very much. 
This is obviously a very important issue. I would like to thank 
our host, the FAA, and once again to most importantly thank the 
men and women of the Technical Center who, on a day-in and day-
out basis, have a commitment to excellence and are producing 
such great work here.
    So, with that, the committee stands adjourned.

    [Whereupon, at 3:34 p.m., the subcommittee was adjourned.]



</pre></body></html>
